NO.

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020

QUENTIN WATSON- PETITIONER
VS.
DARRELL VANNOY, WARDEN
LOUISIANA STATE PENITENTIARY - RESPONDENT^)
PROOF OF SERVICE

2020. as required
1, Quentin Watson, do swear or declare that on this date December
by Supreme Court Rule 29,1 have served the enclosed MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party's counsel, and on every ether person required to be served, by
depositing an envelope containing the above documents In the United States mail, properly
addressed to each of them and with first- class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served a-e as follows:

I declare under penadty of perjury that the foregoing is true and correct,
Executed on

,2020.

(Signature)

RECEIVED
DEC 2 8 2020

SffiSgaiigf*

